TN

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-873

GEOPHYSICAL SERVICE, INCORPORATED,
Petitioner,
v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2979 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Loos Qudrarh, Gh

Affiant

  

GENERAL HOTARY-State of Mebraska
RENEE J, GOSS
A My Comm. Exp. September 8, 2023

 

   

Notary Public
